AU01-005 September 2001
Home < Reports < Audit Reports   Legal Services Corporation Office of Inspector General
Results of Recipient Audit Reports for the Year Ended December 31, 2000
Final Report No. AU01-005
September 2001
Other formats: PDF 164K | Word97 56K
September 25, 2001
TO THE BOARD OF DIRECTORS
OF
THE LEGAL SERVICES CORPORATION
The Corporation's fiscal year 1996 appropriations statute (Pub. L. No. 104-134) directed
that annual financial statement audits be used as the primary means for verifying
grantee compliance with applicable laws and regulations.  The fiscal year 2000
appropriations act (Pub. L. No. 105-277) also included this provision.  This report
presents the results of the 2000 audits of LSC grantees.
Independent Public Accountants (IPAs) reported 71 findings in the 235 audit reports.
The OIG reviewed the findings and concluded 32 were significant and referred them to
LSC management for follow up.  None of the referred findings were for grantee
noncompliance with prohibitions and restrictions on the provision of legal services.
Internal control weaknesses such as a failure to follow procedures or delays in
processing financial transactions accounted for a significant portion of the referred
findings.  Missing documents or unsigned documents accounted for the second highest
number of findings.  Other findings involved timekeeping and reporting problems.
This report will be sent to the Corporation's Congressional authorization and
appropriations committees of Congress and will be made available to the public not later
than October 21, 2001.
Leonard J. Koczur
Acting Inspector General
TABLE OF CONTENTS
Results
Summary of Significant Findings
Qualified Audit Opinions
Findings Not Referred to Management
Audit Requirements
Scope and Methodology
Audit Information Management System
Initial Processing
Focused Review
Resolution
Corrective Action
Quality Control Process
RESULTS
The Office of Inspector General (OIG) received 235 calendar year 2000 financial
statement audit reports from LSC grantees.  These reports contained 71 findings.  The
32 findings listed below were significant and were referred to LSC management for
follow up to ensure that the grantees corrected the reported problems.  The remaining
findings were not significant and were not referred to management (see page 3).
Although the categories are not mutually exclusive and some findings could be listed in
more than one category, the following summary of significant findings shows each
finding in only one category for ease of reference.
Summary of Significant Findings Referred to Management
Grantee Audit Reports Calendar Year 2000
CategoryNumber of Findings
Internal Control Problems
Processing financial data
Weaknesses over cash receipts/disbursements
Procedures lacking or not followed
Segregation of duties
Property inventory not taken
Uninsured bank deposits
16
Missing Documents or Unsigned Documents7
Reporting Problems3
Private Attorney Involvement Requirements not Met3
Timekeeping Procedural and Systems Deficiencies2
LSC Fund Balance Exceeded Amount Allowed by LSC Regulations1
Total32
Noncompliance with Restrictions
The IPAs did not report any findings of noncompliance with either statutory client
eligibility requirements (aside from documentation problems), or with the prohibitions and
restrictions on the legal services that may be provided.
Internal Control Problems
Deficiencies in the internal control system accounted for the largest number of significant
findings (16).  These findings primarily involved the lack of written procedures, the failure
to follow procedures when they were available, weaknesses in processing financial data,
weaknesses in handling cash receipts, cash balances exceeding the amount insured by
the Federal Deposit Insurance Corporation, and property inventory not consistently
taken.  The OIG referred the findings to management because an effective system of
internal controls helps ensure compliance with LSC laws and regulations.
Missing Documents or Unsigned Documents
The second largest number of significant findings (7) was related to missing case files,
missing documents and unsigned documents such as client statements of facts,
citizenship attestations, and retainer agreements.  These findings were referred to LSC
management because missing files or unsigned documents can conceal noncompliance
with statutory requirements or other reportable conditions.
Reporting Problems
Three findings disclosed that grantee reports to LSC were inaccurate or not submitted.
Two of these findings related to errors in grantees' case management systems.  These
findings were significant because accurate reporting is an important element of effective
program management, and because LSC established case statistical data as a
performance measure for reporting under the Government Performance and Results
Act.  One finding related to an asset ceiling report.
Private Attorney Involvement Requirements Not Met
Three findings related to the grantees' failure to meet Private Attorney Involvement
Requirements.
Timekeeping Procedural and Systems Deficiencies
Two findings reported deficiencies in timekeeping systems.  These findings were
significant because accurate and reliable timekeeping is essential to ensuring that
grantee staff did not violate the prohibitions or restrictions imposed by Congress.
LSC Fund Balance Exceeded Amount Allowed by LSC Regulations
One finding reported that a grantee had an LSC fund balance that exceeded the amount
LSC regulations allow.  The grantee had not received a waiver from LSC to allow the
funds to be retained.  Excess fund balance findings are significant because they indicate
that grantees may not be making the proper use of LSC funds.
Qualified Audit Opinions
IPAs rendered Qualified Compliance opinions on six grantees for noncompliance with
LSC regulations.  Although the grantees did not comply with the regulations, there was
no evidence that they violated the congressionally imposed prohibitions and restrictions.
Another grantee received a Qualified Opinion from its IPA for reasons unrelated to LSC
requirements.
Findings Not Referred To Management
The IPAs reported 39 additional findings in audit reports for 25 grantees.  After reviewing
these reports, the OIG concluded that the findings did not warrant mandatory follow-up
by LSC management.  Generally, the problems had been corrected or were considered
not significant and were communicated to LSC management via the Audit Information
Management System (AIMS).  These findings were not significant for following reasons.
(18)Minor internal control problem.
( 3)Few insignificant errors in sample and problems not systemic.
( 8)Minor omissions or discrepancies, i.e., document obtained and signed but undated.
( 7)Corrective action taken subsequent to audit.
( 3)Program no longer exists so follow-up is moot.
AUDIT REQUIREMENTS
LSC grant recipients are responsible for preparing annual financial statements and
arranging for their audits by IPAs.  These audits are to be conducted in accordance with
Government Auditing Standards promulgated by the Comptroller General of the United
States, Office of Management and Budget (OMB) Circular A-133, "Audits of Institutions
of Higher Education and Other Non-Profit Institutions" and the "LSC Audit Guide for
Recipients and Auditors."  Audit reports must be submitted to the LSC Office of Inspector
General (OIG) within 120 days of the recipients' fiscal year end.  The reports are to
include an opinion on the financial statements, a report on the internal control structure,
a report on compliance with laws and regulations.
IPAs are also required to submit a Summary Report Form (SRF) on Noncompliance with
Laws and Regulations, Questioned Costs, and Reportable Conditions.  IPAs must
submit SRFs via the Internet by completing a form residing on the OIG website.  The
SRF must be submitted regardless of whether or not there are any audit findings.  The
IPA reports on the SRF any instances of noncompliance, material reportable conditions
and additional findings.  For each reported findings, the IPA provides a description of the
finding, Audit Guide identification code for the finding, the sample size of case files
reviewed, the number of times a deficiency occurred, the recipient response to the
finding, and the amount of any questioned costs.
Under certain circumstances, the recipient must submit to the OIG a special report,
called a 5-day letter, which is based on a report the IPA prepares.  IPAs must
immediately report to the recipient all findings of noncompliance with the
Congressionally imposed prohibitions and restrictions.  The IPA's report describes the
noncompliance and the circumstances under which it occurred.  Within five business
days after issuance of the IPA's report, the recipient must submit to the OIG, a report
entitled "Recipient 5-day Special Report? to the OIG on Noncompliance with Laws and
Regulations."  The recipient also sends a copy of this report to the IPA.
Recipients must submit corrective action plans to LSC for all material findings and
recommendations and questioned costs the IPA identified, within 30 days of the audit
report's submission.  These plans must describe the corrective action taken or planned
in response to the audit findings and recommendations.  If the recipient disagrees with
the findings and recommendations, the reasons for the disagreement must be fully
explained.  The recipient may incorporate the corrective action plans into the audit
reports as part of its response to the auditor's findings and recommendations, but this
option does not extend the due date for audit reports.
SCOPE AND METHODOLOGY
SCOPE
This report covers the grantee financial, internal control, and compliance audit reports
prepared by IPAs for the year ended December 31, 2000.
METHODOLOGY
Audit Information Management System
The OIG developed the Audit Information Management System (AIMS) to support the
audit review team in performing desk reviews of audit reports.  The system tracks and
collects information on the SRF, audit reports, 5-day letters, audit costs, and
management letters.  It also tracks the resolution of audit findings and recommendations
and documents and grantee corrective actions.
Initial Processing
IPAs electronically submit the SRF.  The OIG staff verifies that each form includes all
required information before it is accepted into AIMS.  The grantees submit the audit
reports through the mail.  The OIG staff does a brief review to ensure that reports on the
financial statement, internal controls, and compliance LSC with laws and regulations are
provided.
Focused Review
Following initial processing, the OIG conducts a focused review of the critical audit
findings and recommendations that the IPA reported on the SRF.  The OIG auditors can
add findings that were not reported on the SRF and amend IPA reported findings based
on the focused review.  An auditor reviews the findings and recommendations and takes
action to "invoke A-50" or to ?close the finding to inventory.? The LSC grantee audit follow
up process incorporates the concepts of OMB Circular A-50 "Audit Follow Up," and
hence the use in AIMS of the term ?"invoke A-50."  The auditor then writes a justification
for the recommended action, which is approved or revised by OIG audit management.
If A-50 is invoked, OIG audit management refers the audit findings and
recommendations to LSC management for follow up action.  The referral is made
through AIMS by approving the finding for follow up and establishing a project code to
track the follow up process through resolution and corrective action.
If the finding is closed to inventory, the findings and associated recommendations are
retained in the AIMS system in an inventory of noncritical findings.  These findings are
provided to LSC management by the OIG for information and no follow up action is
required.  The IPAs follow up on these findings in the next fiscal year audit.  If the IPAs
report that these findings are uncorrected the second year, A-50 is invoked at that time.
The decision of whether to invoke A-50 or to close to inventory rests on the finding's
significance.  A significant finding requires management's attention based on
quantitative and/or qualitative conditions contained in the finding.  The following types of
findings and recommendations by grantee IPAs are referred to LSC management for
follow up action:  noncompliance with laws and regulations which have a material impact
on the LSC program, questioned or unsupported costs, material weaknesses, reportable
conditions that are indicative of a systemic problem, and uncorrected findings from prior
reports.
LSC management is responsible for following up on significant findings referred by the
OIG to ensure that deficiencies and noncompliance are promptly resolved.  Recipients
are required to submit corrective action plans to LSC management no later than 30 days
after submission of the audit report.  If a recipient does not submit a corrective action
plan by the due date, LSC management contacts the grantee and requires immediate
submission of the plan.
Resolution
Resolution is the point at which LSC management agrees with the grantee's proposed
corrective action plan or accepts the grantee's disagreement with a reported finding, and
the OIG concurs in the management decision.  If LSC management and the OIG cannot
agree, resolution is reached when the LSC Audit Follow Up Official, designated by the
LSC President, issues a decision on the matter.
LSC management reviews the grantee's corrective action plan to determine if it is
satisfactory.  If the proposed corrective action is unsatisfactory, LSC management
communicates the deficiencies to the grantee and requires the grantee to provide a
satisfactory plan.
LSC management ensures that proposed corrective actions are consistent with law,
regulations, and LSC policy.  If a grantee disagrees with a reported finding or
recommendation, LSC management ensures that the grantee provides an adequate
written justification containing the legal and factual basis for the disagreement.  Within
30 days of receipt of the referred finding, LSC management notifies the OIG of its
acceptance of the corrective action plan or the grantee's disagreement with the finding
and recommendation.
The OIG notifies LSC management within 15 days of its concurrence or
nonconcurrence.  If the OIG concurs, the finding is considered resolved.  If the OIG does
not concur, the Audit Follow Up Official has 15 days to seek agreement between LSC
management and the OIG.  If no agreement is reached within the 15 days, the Audit
Follow Up Official issues a decision within 7 days, and the finding is considered
resolved.
Corrective Action
After resolution has been obtained, LSC management ensures that corrective actions
have been taken by the grantee within six months of the resolution date.  LSC requires
the grantee to provide documentation that the corrective action has been fully
implemented and requires the grantee to certify that all corrective actions have been
implemented.  LSC management notifies the OIG of all completed corrective actions and
provides the OIG with copies of the grantee certifications.  Upon receipt of the
notification of completion, the OIG closes the respective findings and recommendations.
IPAs will also verify completion of corrective actions during the next fiscal year audit.
Quality Control Process
In 1998, the OIG initiated the Audit Service Review (ASR) program to evaluate the
effectiveness of the compliance audits performed by grantees' IPAs.  ASRs include a
review of the IPAs' working papers to determine if the grantees' compliance with LSC
laws and regulations was adequately tested.  The continuing ASR process allows the
OIG to monitor the quality of the IPA audit reports and thus increase the reliability of the
reports.
The OIG is conducting 10 ASRs on the grantees' 2000 audits.  Eight have been
completed and reports issued.  Two are in process and will be completed by the end of
September.  Two of the completed ASRs concluded that the auditors adequately tested
compliance with all regulations.  Two other ASRs determined that the IPAs did not
adequately test the grantees' compliance with LSC laws and regulations.  The OIG
required the auditors to redo the audit and perform adequate testing.  The remaining
ASRs found relatively minor testing deficiencies.  The OIG required the auditors to
ensure that adequate testing would be done on future audits.
The OIG reviews all audit reports submitted by IPAs that include critical findings and
those that have management letters.  The audit reports prepared by IPAs selected for
ASRs are also reviewed.  The OIG reviewed 104 of the 235 audit reports received for
calendar year 2000.  In prior years, a sample of reports lacking critical findings was
reviewed.  These reviews disclosed few critical findings that had not been reported and
were, therefore, not cost effective.  Reports lacking critical findings or a management
letter were not a priority this year and such reports have not been reviewed.  As staff is
available, a small sample of reports with noncritical findings will be reviewed.
URL: http://www.oig.lsc.gov/reports/01005/au01005.htm